XI.

Appendix

A)

United States Sixth Circuit Court of Appeals Opinion in United States v.
Baker entered September 24, 2020.

B)

Judgment in United States v. Baker entered in Case Number 4:17-CR-7-1JHM in the United States District Court for the Western District of Kentucky.

C)

District Court ruling on Mr. Baker’s Motion to Suppress.

D)

Webster District Court Warrant of Arrest for Tyslen Baker entered by Webster
District Court on January 24, 2017.

9

